LEGAL SERvIcEs CoRPoRATIoN

       BoARD OF DIRECTORS




      _LSC      For 25 years, America’s
                Partner For Equal Justice




 SEMIANNUAL REPORT TO THE CONGRESS
                   ON
DECISIONS, FINAL ACTIONS, AND COMMENTS
 ON THE OFFICE OF INSPECTOR GENERAL’S
 SEMIANNUAL REPORT TO THE CONGRESS
             FOR THE PERIOD

      April 1, 1999   September 30, 1999

                                            November 1999
                                     FOREWORD


      I am pleased to transmit the report of the Legal Services Corporation (“LSC” or
~‘Corporation”) regarding the Semiannual Report of LSC’s Office of Inspector General
(“OIG”) for the six-month period of April 1, 1999 through September 30, 1999.
       The Corporation’s Board ofDirectors (“Board”) recognizes the value of the Inspector
General function and remains committed to working with the Inspector General to achieve
our goal of providing high quality legal assistance to the poor of our nation.




                                                Douglas~7Eakeley,Chairman
                                                Legal Ser~’icesCorporation

                                                November 1999
                               TABLE OF CONTENTS



I1\1Iessage of the Board of Directors                                                1


Background                                                                           2

      The Legal Services Corporation                                                 2

      Grant-Making Activities                                                        2
iVianagement Initiatives                                                             3

      Competition and State Planning                                                 3

      Compliance Monitoring and Enforcement                                          4

      Regulatory Review                                                              7

       Technology                                                                    7

       Other Matters                                                                 8

Program Integrity                                                                    9
       Status of Findings and Recommendations                                        9
       Statutory Recommendation                                                     10
       Corporation’s Annual Financial Statement Audit                               10
       Investigations                                                               10

TABLE 1:      Management Report on OIG Audit Reports of Grantees Issued With
              Questioned Costs for the Six-Month Period Ending September 30, 1999.. 11

TABLE 2:      Management Report on Audit Reports Issued During the Six-Month
              Period Ending September 30, 1999, With Recommendations That Funds
              Be Put to Better Use                                              12
              MESSAGE OF THE BOARD OF DIRECTORS


       In July, the Legal Services Corporation (“LSC” or “the Corporation”) celebrated its
25th Anniversary with a White House ceremony and a Congressional reception, at which
LSC was recognized as a model public-private partnership in its work to provide legal
services to those who could not otherwise afford them. The Corporation will proudly carry
this mandate into the new century. Significant progress was also achieved during this
reporting period on a number of Management Initiatives. First, the Corporation’s state
planning efforts resulted in significant reconfiguration of the service areas in nine states
subject to competition for year 2000 grants. In addition, LSC provided over $375,000 in
technical assistance grants and contracts for a variety of state planning efforts during this
reporting period. A second major initiative culminated in the first LSC-sponsored
conference focusing on the legal needs ofthe Native American population and assessing how
LSC grantees can better serve these needs. Based on the success of this conference, the
Corporation intends to sponsor similar conferences to focus on the special legal needs of
other vulnerable segments of the low-income population that it serves.

       The Corporation also continued to devote substantial time, effort, and attention to
improving the accuracy of the Case Service Reporting (“CSR”) system through which
recipients of LSC funding report to the Corporation on the number and type of cases for
which legal assistance was provided during the year. As a result of the audits by the Office
of Inspector General and LSC’s routine on-site compliance visits, the Corporation had begun
to identify and correct certain systemic problems with the CSR data during 1998. Despite
these efforts, LSC was subjected to harsh and, at times, unwarranted criticism in the press
                                         —                            —



and intense scrutiny by some members of Congress in the wake of LSC’s appropriations
hearing on March 3, 1999. The Corporation has worked diligently with its grantees to
improve their CSR data, and assisted the General Accounting Office in its review of this
issue and the Corporation’s prior corrective action.

        In September 1999, the House Judiciary Subcommittee on Commercial and
Administrative Law, chaired by Congressman George W. Gekas (R-PA), held an oversight
hearing on LSC, focusing particularly on the CSR issue. Congress has provided the
Corporation with a clear mandate to improve its data collection system and the accuracy of
its reports to Congress, which this Board is committed to carrying out. LSC’s priority will
be to assess the data collection system and implement the changes necessary to ensure that
the data are not only accurate but also a true measure of the services provided by the
Corporation’s grantees.
                                     BACKGROUND



The Legal Services Corporation

       LSC is a private, non-profit corporation established in the District of Columbia by
the Legal Services Corporation Act of 1974, as amended (“the LSC Act”),’ to provide
financial support for legal assistance in civil proceedings to persons unable to afford legal
services. Under the LSC Act, the Corporation is governed by an eleven-member bi-partisan
Board of Directors appointed by the President of the United States, with the advice and
consent of the Senate. The Board appoints the President of the Corporation, who serves as
the Corporation’s chief executive officer, subject to general policies established by the Board.

       The 1988 Amendments to the Inspector General Act of 1978 required LSC to
establish an Office of Inspector General (“OIG”) and extended specific provisions of the
1978 Act to LSC. Accordingly, such an office was established by and for the Corporation.
The Inspector General is appointed by, reports to and serves under the general supervision
of the Corporation’s Board of Directors.


Grant-Making Activities

       To carry out the purposes ofthe LSC Act, Congress appropriated to the Corporation
$300 million for fiscal year 1999 (Pub. L. 105-277), $289 million of which the Corporation
is using to fund 257 legal services programs to provide legal assistance to indigent persons
throughout the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and Micronesia.




1      42 U.S.C.   §~2996-29961.
                                               2
                            MANAGEMENT INITIATIVES


        During the reporting period, the Corporation continued its efforts to improve the
efficiency of its competitive grant award system and the effectiveness of the delivery of legal
assistance by its initiative for statewide planning and coordination of legal services. The
Corporation continued to demonstrate its ability to ensure both compliance with program
rules and regulations and the maintenance of high quality legal assistance to eligible clients.


Competition and State Planning

        The grant award process for the year 2000 grants was begun with the publication of
the RFP in April, 1999. The Corporation solicited proposals for 217 service areas and
received grant renewal applications for the remainder of its service areas. The states with
service areas up for competition were separated into two groups as a result of decisions based
on the state planning and coordination materials submitted in response to LSC’s program
letters issued in 1998. Potential applicants in the nine states in which the state planning
materials called for the most significant reconfiguration of service areas were given
additional time in which to submit their notices of intent to compete and their grant
proposals. LSC received and processed 175 applications in response to its RFP. Despite the
staggered scheduling, all grant proposals were timely and thoroughly assessed and grant
determinations made during November, 1999. Five service areas attracted multiple
applications for the grant, with a current recipient being awarded the grant for each of these
service areas.

        During this reporting period, the Corporation continued to work as an active partner
with the planning groups as part of its ongoing state planning initiative. The purpose of the
state planning initiative is to have all recipients take planning and implementation
responsibility for statewide delivery issues with a goal of expanding access to legal services
for low income people. LSC staff and consultants made more than 15 visits in furtherance
of state planning in this period. As part ofthe state planning effort, LSC awarded 13 grants
and 29 contracts on a one-time basis, in varying amounts of up to $15,000, to provide
technical assistance to states to advance the development of comprehensive, integrated
statewide delivery systems. In all, over $375,000 was provided for technical assistance
grants and contracts for state planning efforts during the reporting period. The grants and
contracts are designed to: improve intake systems; develop integrated technology systems;
explore consolidations; and encourage coordinated state planning efforts. LSC is encouraged
by the broad participation that the planning process is getting and by the effort being put into
the process by grantees, bar associations and other participants in the planning process.

                                               3
Compliance and Enforcement (“OCE”) staff also completed an on-site follow-up visit to the
Legal Services of Northern Virginia, which had been the first CSR audit released by the OIG
during the last reporting period.

       During this period, the Inspector General also released four audits relating to 1998
CSR data. These reports continue to reflect unacceptably high error rates in the reporting of
closed cases. The untimely closing of cases, counting applicants who receive no substantive
legal assistance as a case, and the counting cases more than once, continue to be the primary
contributors to the error rates. LSC’s written guidance with respect to the first two types of
error apparently came too late in 1998 to have had an effect on the error rate. Written
guidance with respect to the screening for duplicate cases was issued in 1998, but was to be
applied for the 1999 reporting cycle. In one ofthe audits, the OIG reported for the first time
a recipient’s failure to document the client name, which significantly contributed to that
recipient’s error rate. OCE staff is working closely with these grantees to ensure effective
corrective action is taken on all audit recommendations.

        With regard to the one audit report in which the recipient asserted attorney-client
privilege to deny the OIG auditors access to certain materials, OCE staff have been on-site
at the Legal Aid Bureau (“LAB”) of Maryland and have agreed to procedures to ensure the
access to materials necessary to a review of CSR compliance without implicating privileged
materials. A follow-up visit is planned during the next reporting period to complete a CSR
compliance review at LAB using the revised procedures.

       Also during this reporting period, the OCE staff conducted six on-site reviews of
compliance with CSR requirements, including visits to the New Center for Legal Advocacy,
Legal Services of Western Carolina, Bexar County Legal Aid Association, Central California
Legal Services, Central Minnesota Legal Services, and Florida Rural Legal Services, and
returned to a seventh program, Legal Aid of Central Michigan (“LACM”), to follow-up on
corrective action resulting from an earlier complaint and CSR compliance visit. LACM has
been advised that the complaint is closed. Reports on the other CSR compliance visits are
being drafted.

          In addition to the OIG’s CSR audit reports and LSC’s own compliance visits, the
Corporation, in June, received the results of the General Accounting Office (“GAO”) report
of 1997 CSR data reported by five of LSC’s largest recipients. This report largely confirmed
the findings of the OIG for 1997 CSR data and questioned approximately 34% of the open
and closed cases reported by the five grantees. The GAO also attempted to quantify the
documentation problems that existed with respect to client eligibility; in particular, the
absence of financial eligibility documentation and signed citizenship attestation forms. As
a result of these findings, the Corporation has clarified its documentation requirements and
is working with these grantees to ensure effective corrective action is taken. During the
                                              5
Regulatory Review

        During this period the Corporation continued consideration of proposed revisions to
its rules on timekeeping and recipient fund balances. The revisions to the timekeeping rule,
45 CFR Part 1635, are intended to ensure that part-time employees do not engage in
restricted activities during any time for which they are being compensated by the LSC
grantee. The rule was republished on April 5, 1999, for additional comment on language that
would require part-time attorneys and paralegals who also work for an organization that
engages in restricted activities to certify that they did not engage in any restricted activities
during the time for which they were compensated by the recipient. The fund balance rule was
considered by the Operations and Regulations Committee on February 20, 1999 and again
on June 11, 1999. It is anticipated that the Committee will recommend a final rule on both
of these topics to the Board at its November 1999 meeting. As discussed in the Legislative
and Regulatory Review section of the Inspector General’s report for this period, the Board
did adopt a final rule offered by the OIG, 45 CFR Part 1641, that implements the OIG’s
statutory authority to debar, suspend and remove auditors performing the annual financial
and compliance audits of LSC grantees.

       The Board and the Corporation’s staff continue to work closely with the OIG on all
of these regulatory efforts.


Technology

       The Corporation is responsible to Congress to assure Y2K compliance for its
computer systems. LSC has taken steps to comply with all of the Y2K requirements
expected of federal agencies, and the status of these efforts is regularly reported to 0MB.
LSC‘s computer network is Y2K compliant, thus assuring its capacity to function at the
highest levels of technology for the future. In addition, the Corporation has bolstered the
security of its system. In response to the potential threat posed by hackers and others intent
on disrupting government and private industry computer operations, LSC has taken steps to
secure its local area network by implementing a firewall security system as the first line of
defense against undesired intruders.

         Also during this period, the Corporation has revised its Internet website so as to assure
that its message is delivered in a clear and consistent manner. The new website will, through
enhanced technology, support LSC’s efforts to provide immediate and accurate information
to Congress and the public about the valuable work done by the Corporation. LSC continues
its commitment to technology as an important tool, internally, to enhance the efficiencies of
its work, and, externally, to explore the unbounded potential of technology to further the
delivery of client services.
                                                7
                               PROGRAM INTEGRITY




Status of Findings and Recommendations

        During this reporting period, the Office ofthe Inspector General completed audits of
seven grantees’ compliance with the Corporation’s CSR system requirements. The OIG
referred a total of 50 recommendations to the seven grantees. Corrective action has been
completed or is substantially completed for four of grantees audited. The Corporation is
awaiting a corrective action plan from one of the grantees and a revised correction plan from
another. As noted above, a follow-up visit has been conducted to assess and resolve the
corrective action regarding the four recommendations addressed to the access and other
problems at the Legal Aid Bureau of Maryland. An additional on-site visit to this grantee
is to be completed during the next reporting period.

       As a result of action by Management during the last reporting period, the OIG closed
one recommendation in this reporting period. The closure reflected Management’s action
resolving a recommendation concerning compliance with an interim class action regulation
by one grantee and terminating a questioned cost proceeding.

       Of the nine open recommendations to Management from prior reporting periods:

              The one timekeeping recommendation is addressed in a proposed rule first
              issued for public comment on October 22, 1998. As noted above in the section
              on Regulatory Review, this rule was republished on April 5, 1999, for
              additional comment on language that would require part-time attorneys and
              paralegals who also work for an organization that engages in restricted
              activities to certify that they did not engage in any restricted activities during
              the time for which they were compensated by the recipient and we anticipate
              that it will be adopted as a final regulation at the next Board meeting in
              November;

              The seven recommendations to improve the flexibility of the options allowed
              and the documentation required for approval of Alternative Work
              Arrangements, are, together with other revisions to the Corporation’s Flexitime
              and Flexiplace policies, addressed in changes to the Corporation’s personnel
              manual and policies, which are pending approval and may be presented to the
              Board during the next reporting period; and

                                              9
                                               TABLE 1

                                 Management Report on
                     Office of Inspector General Audits of Grantees
                              Issued With Questioned Costs
                  For the Six-Month Period Ending September 30, 1999


                                                Number of   Questioned   Unsupported
                                                 Reports      Costs         Costs

A. Audit Reports for grantees on which no
   management decision had been made by the
   commencement of the reporting period.          0            $0             $0

B. Audit Reports issued during the reporting
   period.                                        0            $0             $0


   Subtotals (A + B)                              0            $0             $0


MINUS:

C. Audit Reports for which a management
   decision was made during the reporting
   period:.                                       0            $0             $0

       (i) dollar value of recommendations
           that were agreed to by management      0            $0             $0

       (ii) dollar value of recommendations
            that were not agreed to by
           management                             0            $0             $0


D. Audit Reports for which no management
   decision had been made by the end of
   the reporting period.                          0            $0             $0

    Audit Reports for which no management
    decision had been made within six months
    of issuance.                                  0            $0             $0




                                                  11
                                           TABLE 2


             Management Report on Audit Reports Issued During
               the Six-Month Period Ending September 30, 1999
            With Recommendations That Funds Be Put to Better Use



                                                          Number of   Dollar
                                                           Reports    Value

A.   Audit Reports for which no management
     decision has been made by the commencement
     of the reporting period.                               0          $0

B.   Audit Reports issued during the reporting period.      0          $0

     Subtotals (A + B)                                      0          $0


MINUS:

C.   Audit Reports for which a management decision
     was made during the reporting period:                  0          $0

     (i)   dollar value of recommendations that were
           agreed to by management                          0          $0

     (ii) dollar value of recommendations that were not
          agreed to by management                           0          $0

D.   Audit Reports for which no management decision
     had been made by the end of the reporting period.      0           $0

     Audit Reports for which no management decision
     had been made within six months of issuance.           0          $0




                                                12
